XAVIER BECERRA
Attorney General

State of California
DEPARTMENT OF JUSTICE
455 GOLDEN GATE AVENUE, SUITE 11000
SAN FRANCISCO, CA 94102-7004

Public: (415) 510-4400
Telephone: (415) 510-3868
Facsimile: (415) 703-1234
E-Mail: Jill.Thayer@doj.ca.gov

January 22, 2021
Hon. Scott S. Harris, Clerk
Supreme Court of the United States
1 First Street, NE
Washington DC 20543
RE:

Request for extension of time to file response to petition
Jacob Townley Hernandez v. Suzanne M. Peery, Warden, No. 20-6199

Dear Mr. Harris:
This office represents the respondent in this case. The petition for a writ of
certiorari was filed on October 27, 2020. On January 5, 2021, the Court requested a
response, which is currently due February 4. Pursuant to Rule 30.4, respondent
respectfully requests that the time for filing a response be extended by 30 days, up to
and including March 6. The extension is requested because of the press of other
business, and because the response must be reviewed by multiple attorneys within
the California Department of Justice, including the Solicitor General. An extension
of time will enable preparation of a response that would be most helpful to the Court.
Petitioner has no objection to this request.
Accordingly, I respectfully request that the existing due date for the State’s
response to the petition for writ of certiorari be extended to March 6, 2021. Thank
you for your attention to this request, and please do not hesitate to contact me if you
require any further information.
Sincerely,
/s/ Jill M. Thayer
JILL M. THAYER
Deputy Attorney General
For

XAVIER BECERRA
Attorney General

cc: Marc J. Zilversmit, Counsel for Petitioner

